No.
W

IN THE

Cv.ua, u.s.

SUPREME COURT OF THE UNITED STATES

AUG 1 6 2021
OFFICE OF THE CLERK

NICHOLAS EDWARDS
— PETITIONER
(Your Name)
vs.
JOHN WETZEL, KRASNER,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

NICHOLAS EDWARDS

(Your Name)
SCI BENNERTWP, 301 INSTITUTION DR.
(Address)
BELLEFONTE, PA 16823

(City, State, Zip Code)

(Phone Number)

received
AUG 2 3 2021
SUpEMECQUR^n^

:

QUESTION(S) PRESENTED

1. WHETHER THE U.S. COURT OF APPEAL ERROR IN NOT FINDING
PETITIONER WAS NOT PREJUDICED BY TRIAL COUNSEL FAILURE TO CALL
WITNESSES P/O OFFICER WHO WOULD HAVE IMPEACH IDENTIFICATION
EVIDENCE, AND COUNSEL FAILED TO IMPEACH THE EYEWITNESS WITH
POLICE REPORTS THAT PROVE HIS INNOCENCE, OF MISCARRIGE OF JUSTICE.

2. WHETHER THE U.S. COURT OF APPEAL ERROR THAT PCRA COUNSEL'S
INEFFECTIVENESS CONSTITUTES CAUSE AND PREJUDICE TO PETITIONER
PROCEDURAL DEFAULT OF HIS TRIAL COUNSEL INEFFECTIVE ASSISTANCE.

3. WHETHER PETITIONER SHALL ENJOY THE RIGHT TO HAVE COMPULSORY
PROCESS OBTAINING WITNESS IN HIS FAVOR AND TO HAVE THE ASSISTANCE
OF COUNSEL FOR HIS DEFENCE UNDER THE SIXTH AMENDMENT.

i

i.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
COMMONWEALTH V. EDWARDS, NO. CP-51-CR-10063-2003, COMMON PLEAS
OF PHILADELPHIA COUNTY JUDGMENT ENTER ON 8-9-2016
COMMONWEALTH V. EDWARDS, NO. 2760 EDA 2016, PENNSYLVANIA SUPERIOR
COURT JUDGMENT ENTERED 7-6-2017
COMMONWEALTH V. EDWARDS, NO. 406 EAL 2017, PENNSYLVANIA SUPREME
COURT EASTER DISTRICT, JUDGMENT ENTERED 1-9-2018
NICHOLAS EDWARDS V. SUPERINTENDENT FOREST SCI, NO. 15-5615 U.S.
DISTRICT COURT EASTERN DISTRICT OF PENNSYLVANIA, JUDGMENT
ENTERED-8-2^2Q18
NICHOLAS EDWARDS V. SUPERINTENDENT FOREST SCI, NO. 18-2936
U.S. COURT OF APPEALS FOR THE THIRD CIRCUIT, JUDGMENT ENTERED
7-16-2021

ii.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-

REASONS FOR GRANTING THE WRIT

11

CONCLUSION

13

INDEX TO APPENDICES

APPENDIX A

UNITED STATES COURT OF APPEAL FOR THE THIRD CIRCUIT, NO. 18-2936
DATE OF 7-16-2021 , CERTIFIED OF THE JUDGMENT, PG. l5-r2$

APPENDIX B

UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF•PENNSYLVANIA
DATED 8-7-2018, ORDER, PG. 29^89

APPENDIX C

IN THE SUPREME COURT OF PENNSYLVANIA EASTERN DISTRICT NO. 406 EAL
2017, DATE OF 1-9-2018, CERTIFIED COPY OF ORDER, PG. 90-',B

APPENDIX D
APPENDIX E

IN THE SUPERIOR COURT OF PENNSYLVANIA, NO. 2760 EDA 2016, DATE OF
7-6-2017 "S/" OPINION / ORDER PG. 9:1-99COURT OF COMMON PLEAS OF PHILADELPHIA COUNTY TRIAL DIVISION NO. CP-51 -

APPENDIX F

CR-1006311-2003, DATE OF 8-9-2016, "S/" TRIAL COURT OPINION AND
NOTICE TO DISMISS, PG. , .100^.107

iii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

MARTINEZ V. RYAN, 566 U.S. 1 (2012)....................

4, 8, 9, 11

MURRAY V. CARRIER, 477 U.S- 478 (1986).............

11

SCHLUP V. DELO, 513 U.S. 298 (1 995)....................

11

STRICKLAND V. WASHINGTON, 466 U.S. 668 (1984)

11, 12

STATUTES AND RULES
* 28 U.S.C. § 2254 ...

19

28 U.S.C. § 1254 (1 )

2

SUPREME COURT RULE 10

11, 12

OTHER
U.S. CONST. AMEND. VI

3, 4

U.S. CONST. AMEND. XIV

3i 4

iv.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

[ ] reported at
; or,
[x] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
B

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ xl has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ >3 For cases from federal courts:
The date on which the United States Court of Appeals decided my case
JULY , 16 2021
was
[ ] No petition for rehearing was timely filed in my case.
[ x] A timely petition for rehearing was denied by the United States Court of
JULY 85, 2021
Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix__h.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
THE FOLLOWING STATUTORY AND CONSTITUTIONAL PROVISIONS ARE
INVOLVED IN THIS CASE.

U.S. CONST. AMEND. VI
IN ALL CRIMINAL PROSECUTIONS, THE ACCUSED SHALL ENJOY THE RIGHT
TO A SPEEDY AND PUBLIC TRIAL, BY AN IMPARTIAL JURY OF THE STATE
AND DISTRICT WHEREIN THE CRIME HAVE BEEN COMMITTED, WHICH
DISTRICT SHALL HAVE BEEN PREVIOUSLY ASCERTAINED BY LAW, AND
TO BE INFORMED OF THE NATURE AND CAUSE OF THE ACCUSATION, TO
BE CONFRONTED WITH THE WITNESSES AGAINST HIM, TO HAVE COMPULSORY
PROCESS FOR OBTAINING WITNESSES IN HIS FAVOR, AND TO HAVE THE
ASSISTANCE OF COUNSEL FOR HIS DEFENCE.
U.S. CONST. AMEND. XIV
SECTION 1. ALL PERSON BORN OR NATURALIZED IN THE UNITED STATES,
AND SUBJECT TO THE JURISDICTION THEREOF, ARE CITIZENS OF THE
UNITED STATES AND OF THE STATE WHEREIN THEY RESIDE. NO STATE
SHALL MAKE OR ENFORCE ANY LAW WHICH SHALL ABRIDGE THE PRIVILEGES
OR IMMUNITIES OF CITIZENS OF THE UNITED STATES, NOR SHALL ANY
STATE DEPRIVE ANY PERSON OF LIFE, LIBERTY, OR PROPERTY, WITHOUT
DUE PROCESS OF LAW, NOR DENY TO ANY PERSON WITHIN ITS
JURISDICTION THE EQUAL PROTECTION OF THE LAWS.

3.

STATEMENT OF THE CASE
PETITIONER MR. EDWARDS RIGHT TO EFFECTIVE ASSISTANCE OF COUNSEL
UNDER THE SIXTH AND FOURTEENTH AMENDMENT WAS VIOLATED BY TRIAL
COUNSEL'S FAILURE TO CALL AND CONDUCT INTERVIEW OF THE POLICE
OFFICER'S, COUNSEL FAILED TO REVIEW AND PRESENT THAT EVIDENCE
TO THE JURY IN DISCOVERY MATERIAL, COUNSEL FAILURE RESULTED
IN PREJUDICE TO MR. EDWARDS, HAD THE JURY HEARD THAT THE COMMON­
WEALTH WITNESS STANTON TOLD POLICE OFFICER AT THE SCENE THAT
HE HAD NOT WITNESSED THE SHOOTING IN VIEW OF THE POLICE REPORTS.
AND THE LAST COMMONWEALTH WITNESS HENDRICK ADMITTED THAT HE
DID NOT ACTUALLY SEE THE SHOOTING BECAUSE HE WAS HALF WAY UP
THE STAIR IN 2838 JASPER STREET. THE FACTS IS IN THE AFFIDAVITS
OF PROBABLE CAUSE IN THE POLICE REPORT RECORDS THAT WAS NEVER
USED AT TRIAL NOR DISCOVERY THAT HENDRICK STATED HE WAS IN FACT
DOWN THE STRRET AT DIFFERENT ADDRESS OF 2830, THE NEXT BLOCK,
, HAD TRIAL COUNSEL USE THE REPORTS AND QUESTION THE WITNESSES
AND ALL THE EVIDENCE BEEN ADMITTED TO THE JURY, MR. EDWARDS
COULD HAVE ARGUE IN LIGHT OF THE NEWLY PRESENTED EVIDENCE OF
HIS INNOCENCE, OF THE TRUSTWORTHY EYEWITNESS ACCOUNT, IT IS
MORE LIKELY THAN NOT THAT NO REASONABLE JUROR WOULD HAVE FOUND
MR. EDWARDS GUILTY BEYOND A REASONABLE DOUBT.
PETITIONER MR. EDWARDS WAS DENIED THE OPPORTUNITY TO HAVE THIS
CLAIM HEARD DURING THE STATE POST-CONVICTION (PCRA) PROCEEDING
DUE TO THE STATE APPOINT (PCRA) COUNSEL'S WAS UNREASONABLE
r

FAILURE TO ASSERT IT, PURSUANT TO MARTINEZ V. RYAN, 566 U.S,
1 (2012), THIS FAILURE CONSTITUTION CAUSE AND PREJUDICE EXCUSING
HIS PROCEDURAL DEFAULT OF THE UNDERLYING CLAIM OF TRIAL COUNSEL
INEFFECTIVENESS. THE COMMONWEALTH PRESENT NO ONE PIECE OF REAL
PHYSICAL EVIDENCE LINKING MR. EDWARDS TO THIS CRIME. THEY RELIED
PRIMARILY TWO CONVICTED FELONY AS PURPORTED EYEWITNESSES TO THE CRIME.
4.

ON NOVEMBER 21, 2005, THE JURY FOUND MR. EDWARDS GUILTY OF FIRSTDEGREE MURDER, CARRYING FIREARMS WITHOUT A LICENSE, POSSESSING
AN INSTRUMENT OF CRIME, AND CRIMINAL CONSPIRACY. ON FEBRUARY
3, 2006, THE COURT SENTENCE MR. EDWARDS TO LIFE WITHOUT PAROLE,
AND CONCURRENT TERMS OF 20 TO 44 YEARS IMPRISONMENT. THE SUPERIOR
COURT AFFIRMED JUDGMENT ON JULY 28, 2009.
ON JUNE 28, 2010, MR. EDWARDS FILED A PRO SE PETITION FOR
RELIED UNDER

PENNSYLVANIA POST-CONVICTION RELIEF ACT (PCRA).

THE PETITION CONTAINED NUMEROURS CLAIMS FOR RELIEF, INCLUDING
THAT TRIAL COUNSEL WAS INEFFECTIVE FOR FAILINF TO IMPEACH STATES
EYEWITNESSES WITH PRIOR INCONSISTENT STATEMENTS. IN SUPPORT
OF THIS CLAIM, MR. EDWARDS ATTACHED AND CITED THE
INVESTIGATION INTERVIEW OF OFFICER MICHAEL WALSH. MR. EDWARDS
, .ARGUED PCRA PETITION THAT WALTER STANTON COULD'NOT HAVE BEEN
AN EYEWITNESS TO THE CRIME BASE OF HIS STATEMENT TO OFFICER
WALSH THAT HE RAN WHEN HE SAW THE SHOOTER AND DID NOT IN FACT
HEAR GUNSHOTS UNTIL HE HAD TURNED THE CORNER ON HART LANE
AND HEARD SHOTS,.THIS GOES TO THE TRUSTWORTHY EYEWITNESS ACCOUNT..
MR. EDWARDS ALSO ARGUED THAT TRIAL COUNSEL WAS INEFFECTIVE FOR
NOT CALLING OFFICER MICHAEL WALSH AS A WITNESS AT TRIAL THAT
WAS FAVOR TO THE DEFENSE.
ON MARCH 16, 2011, ELAYNE C. BRYN, ESQUIRE, WAS APPOINTED
TO REPRESENT MR. EDWARDS. MS. BRYN SUBMITTED AN AMENDED PCRA
PETITION FOR MR. EDWARDS AND A CORRECTED VERSION OF THAT PETITION
FILED ON JUNE 1, 2012. THE CORRECTED AMENDED PETITION COMPRISED
ONLY TWO CLAIMS FOR RELIEF: 1. TRIAL COUNSEL WAS INEFFECTIVE
FOR FAILING TO CALL ALIBI WITNESSES AT TRIAL; AND 2. MR. EDWARDS
RIGHT TO A PROMPT SPEEDY TRIAL RULE 600 WAS VIOLATED.
5.

ON MAY 8, 2013, MR. EDWARDS SENT MS. BRYN A LETTER REFERENCING
A PHONE CONVERSATION ABOUT RAISING ADDITION ISSUES IN HIS PCRA
PETITION. IN THE LETTER, MR. EDWARDS LISTED THE ISSUES HE WANTED
HER TO RAISE THAT TRIAL COUNSEL FAILED TO ADEQUATELY REVIEW
THE DISCOVERY MATERIAL AND CONDUCT AN INDEPENDENT INTERVIEW
OF THE POLICE OFFICER MICHAEL WALSH AND SGT. JOHN PRZEPIORKA,
AND TRIAL COUNSEL FAILED TO USE THESE POLICE REPORTS TO UNCOVER
IMPEACHMENT EVIDENCE, THAT THE COMMONWEALTH EYEWITNESS WALTER
VIEW OF THE CRIME WAS OBSTRUCTED, HE WAS AROUND THE CORNER AND
HE DID NOT SEE WHAT HE CLAIMED TO HAVE SEEN.
ON JUNE 4, 2013 MR. EDWARDS FILED A PRO SE SUPPLEMENTAL
PCRA PETITION REQUESTING TO ASSERT ADDITIONAL CLAIMS, INCLUDING
HIS CLAIM THAT TRIAL COUNSEL FAILED TO USE POLICE REPORTS TO
IMPEACH COMMONWEALTH EYEWITNESSES, MS. BRYN NEVER FILED ANY
x
TYPE OF MOTION, PETITION, OR OTHER DOCUMENT RELATING TO THE
ADDITIONAL CLAIMS MR. EDWARD^ ASKS HER TO RAISE, WHICH SHE SAID
SHE WILL DO.
THE PCRA COURT HELD AN EVIDENTIARY HEARING ON THE CLAIMS
IN THE CORRECTED AMENDED PCRA PETITION FILED :BY PCRA COUNSEL
MS. BRYN. ON APRIL 23, 2014, THE PCRA COURT DISMISSED THE
PETITION. MS. BRYN TIMELY APPEALED THE DISMISSAL RAISING THE
SAME TWO ISSUES SHE HAD RAISE IN THE CORRECTED AMENDED PCRA
PETITION.
ON MARCH 2, 2015, THE PENNSYLVANIA SUPERIOR COURT AFFIRED
THE DISMISSAL OF THE CORRECTED AMENDED PCRA PETITION. THE
PENNSYLVANIA SUPREME COURT DENIED ALLOWANCE OF APPEAL ON JULY
29, 201 5.

6.

ON DECEMBER 29, 2015, MR. EDWARDS FILED A PRO SE SECOND PCRA
PETITION WHICH INCLUDED HIS CLAIM THAT HE WAS DENIED HIS RIGHT
TO EFFECTIVE ASSISTANCE OF COUNSEL UNDER THE SIXTH AMENDMENT
TO THE UNITED STATES CONSTITUTION WHEN TRIAL COUNSEL FAILED
TO CONDUCT AN INDEPENDENT INTERVIEW OF THE POLICE OFFICER IN
THE DISCOVERY MATERIAL.
MR. EDWARDS WAS ALLOWED TO PROCEED PRO SE AND PURSUANT TO
PENNSYLVANIA RULE OF CRIMINAL PROCEDURE 907, WAS SERVED NOTICE
OF THE PCRA COURT’S INTENTION TO DISMISS HIS PETITION ON APRIL
26, 2016. MR. EDWARDS FILED A RESPONSE TO THE RULE 907 NOTICE
ON MAY 10, 2016, ARGUING THAT ALL PRIOR COUNSEL WERE INEFFECTIVE
FOR FAILING TO DEVELOP HIS CLAIMS. ON AUGUST 9, 2016, THE PCRA
COURT DISMISSED THE PETITION AS UNTIMELY AND DENIED RELIEF.
MR. EDWARDS TIMELY FILED NOTICED OF AN APPEAL ON AUGUST 24,
2016.
ON DECEMBER 30, 2016, MR. EDWARDS FILED A BRIEF TO THE
SUPERIOR COURT THAT INCLUDED HIS CLAIM THAT THE PCRA COURT ERRED
IN DENYING APPELLANT POST CONVICTION RELIEF BECAUSE TRIAL COUNSEL
FAILED TO IMPEACH WALTER STANTON BY SHOWING TO THE JURY POSSIBLE
PREJUDICE AND BIAS. MR. EDWARDS POINTED TO OFFICER WALSH'S AND
SERGEANT PRZEPIORKA'S INTERVIEW STATEMENTS AND THAT COUNSEL
SHOULD HAVE CALLED THESE TWO OFFICERS AS WITNESSES AT TRIAL
SHOW THAT THE ALLEGED EYEWITNESSES TO THE CRIME HAD PROVIDED
PRIOR INCONSISTENT STATEMENTS, OF THERE TRUSTWORTHY EYEWITNESS
ACCOUNT WAS UNRELIABLE. ON JULY 6, 2017, THE SUPERIOR COURT
AFFIRMED THE DISMISSAL OF HIS SECOND PCRA PETITION SOLELY ON
GROUNDS THAT IT WAS UNTIMELY. MR. EDWARDS FILED A PETITION FOR
ALLOWANCE OF APPEAL, WHICH THE PENNSYLVANIA SUPREME COURT DENIED
ON JANUARY 9, 2018.
7.

ON OCTOBER 12, 2015, MR. EDWARDS FILED A PRO SE PETITION FOR
WRIT OF HABEAS CORPUS IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA RAISING TWENTY-ONE GROUNDS
FOR RELIEF, RELEVANT TO THIS APPEAL, GROUND 20, CLAIM THAT TRIAL
COUNSEL FAILED TO CONDUCT AN INDEPENDENT INTERVIEW OF THE POLICE
OFFICER'S IN THE PETITIONER'S MR. EDWARDS DISCOVERY MATERIAL.
THE PETITION WAS ASSIGNED TO DISTRICT COURT JUDGE GERALD A.
MCHUGH, WHO REFERRED IT TO MAGISTRATE JUDGE LYNNE A. SITARSKI
FOR A REPORT AND RECOMMENDATION (R&R).
THE COMMONWEALTH FILED A RESPONSE TO MR. EDWARDS PETITION,
AND MR EDWARDS FILED A TRAVERSE IN REPLY, HE ARGUED THAT
PROCEDURAL DEFAULT OF HIS CLAIM-SHOULD BE EXCUSED UNDER MARTINEZ
V. RYAN, 566 U.S. 1 (2012), AND HE REITERATED HIS CLAIM OF INEFF­
ECTIVE ASSISTANCE.TRIAL COUNSEL. MR. EDWARDS EXPLAINED THAT
«

’ HAD TRIAL COUNSEL REVIEWED THE DISCOVERY MATERIAL HE WOULD HAVE
UNCOVERED THAT WALTER STANTON'S VIEW OF THE CRIME WAS OBSTRUCTED
BECAUSE WALTER WAS AROUND THE CORNER AND DID NOT IN FACT SEE
THE SHOOTING IN VIEW OF THE POLICE OFFICER'S REPORT. MR. EDWARDS
ALSO CLAIMED COUNSEL FAILED TO CALL THE OFFICER'S WALSH AS
WITNESSES AT TRIAL BECAUSE THEIR TESTIMONY WOULD HAVE
CONTRADICTED THE TESTIMONY BY THE COMMONWEALTH ONLY KEY WITNESS
AND WHICH FOR THE BASIS FOR THE CONVICTION.
THE MAGISTRATE JUDGE ISSUED AN R&R ON JUNE 15, 2018,
RECOMMENDING THAT THE DISTRICT COURT DENY THE PETITION. ON JUNE
28, 2018, MR. EDWARDS FILED OBJECTION TO THE R&R, INCLUDING
A SPECIFIC OBJECTION TO THE MAGISTRATE JUDGE'S RECOMMENDATION
FOR HIS CLAIM REGARDING TRIAL COUNSEL’S INEFFECTIVENESS.FOR
8.

THE DISTRICT COURT ADOPTED THE R&R OVER MR. EDWARDS OBJECTIONS
ON AUGUST 7, 2018, DISMISSING THE PETITION WITH PREJUDICE AND
WITHOUT ISSUING A CERTIFICATE OF APPEALABILITY. MR. EDWARDS
FILED A NOTICE OF APPEAL ON AUGUST 24, 2018, FOLLOWED BY AN
APPLICATION FOR ^A CERTIFICATE OF APPEALABILITY (COA).
ON MARCH 14, 2019, THIS COURT GRANTED A COA REQARDING GROUND
20, of MR. EDWARDS FEDERAL HABEAS PETITION, SPECIFICALLY TO
ADDRESS 1) WHETHER THAT CLAIM IS PROCEDURALLY DEFAULTED; 2)
IF SO, WHETHER THE DEFAULT OF THAT CLAIM IS EXCUSED UNDER
MARTINEZ V. RYAN, 566 U.S. 1 (2012); AND 3) WHETHER APPELLANT
IS ENTITLED TO RELIEF ON THE MERITS OF THAT CLAIM. THE SCOPE
OF THE COA ALSO INCLUDES THE QUESTIONS OF WHETHER TRIAL COUNSEL
SHOULD HAVE CALLED AS WITNESSES OFFICER WALSH AND SERGEANT
-PRZEPIORKA, WHETHER THAT CONSTITUTES A SEPARATE CLAIM, AND
WHETHER MR. EDWARDS SHOULD HAVE BEEN GRANTED LEAVE TO AMEND
TO ASSERT IT. THE COURT ALSO GRANTED MR.- EDWARDS MOTION FOR
APPOINTMENT OF COUNSEL AND WAS APPOINTED BY THE FEDERAL COMMUNITY
DEFENDER OFFICER TO REPRESENT HIM IN THIS APPEAL. MR. EDWARDS
APPLICATION FOR COA WAS DENIED.
ON MARCH 17, 2021, CIRCUIT JUDGE GREENAWAY Jr. GRANTED MR.
EDWARDS MOTION FOR 60 DAYS EXTENSION OF. TIME TO FILE PRO SE

\

PETITION FOR REHEARING UNTIL MAY 18, 2021 , AND FOR FEDERAL
COUNSEL TO WITHDRAW. DATE ON MAY 18, 2021, THE COURTS OF APPEAL
HAVE RECEIVED THE PETITION FOR REHEARING BY NICHOLAS EDWARDS
BY ORDER MR. EDWARDS TO MOTION TO FILE EXHIBITS ATTACHED TO
THE PETITION WHICH MR. EDWARDS FILED BY THE CLERK SEND MR.
EDWARDS A BACK DATED LATTER TO CORRECTED THE DEFICIENCIES BY
6-10-2021,
9.

i

THE PETITION FOR REHEARING BY THE PANEL AND THE COURT EN BANC
WAS DENIED BY ORDER DATED JULY 8,

2021.

j

;

10.

j
t

REASONS FOR GRANTING THE PETITION
RULE 10
PETITIONER IS SEEKING REVIEW OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT HAS DECIDED AN IMPORTANT FEDERAL
QUESTION IN A WAY THAT CONFLICTS WITH RELEVANT DECISIONS OF
THIS SUPREME COURT PRECEDENT CASE OF MARTINEZ V. RYAN,
1

566 U.S.

(2012), ON PETITIONER PROCEDURAL DEFAULT CLAIM BY SHOWING

CAUSE AND PREJUDICE FROM A VIOLATION OF FEDERAL LAW, SEE,
\

LAND, V, WASHINGTON,

466 U.S.

668

STRICK­

(1984), THE SECOND PRONG TWO-

PART TEST, THAT PETITIONER SUFFERED PREJUDICE AS A RESULT OF
TRIAL COUNSEL DEFICIENCY, GIVEN THE TOTALITY OF THE CIRCUMSTANCE
THAT TRIAL COUNSEL BREACHED HIS DUTY TO INVESTIGATE AND CALL
WITNESSES IN HIS FAVOR WHICH THE SIXTH AMENDMENT IMPOSE ON COUSEL
BECAUSE REASONABLE EFFECTIVE ASSISTANCE MUST BE BASE ON PROFESS­
IONAL DECISION AND INFORMED LEGAL CHOICES CAN BE MADE ONLY AFTER
INVESTIGATION OF OPTIONS WHICH PETITIONER WAS DENIED AT ALL
LEVEL AND COUNSEL HAD A CONFLICT OF INSTERST AND A RIGHT TO
A FAIR TRIAL WAS DENIED.

IN LIGHT OF PETITIONER NEWLY PRESENTED

EVIDENCE OF HIS ACTUAL INNNOCENCE EXCEPTION AS THE FUNDAMENTAL
MISCARRIGE OF JUSTICE,
(1986), SCHLUP V. DELO,

SEE, MURRAY V. CARRIER,
513 U.S.

298

(1995),

477 U.S.

478

INDEED CALLS INTO

QUESTION THE CREDIBILITY OF BOTH COMMONWEALTH ONLY WITNESSES
THAT WAS NEVER ON THE CRIME SCENE IN VIEW OF THE POLICE REPORTS
AND IN A AFFIDAVITS OF PROBABLE CAUSE, THIS EVIDENCE WAS NOT
PRESENTED AT TRIAL TO THE JURY. WITH THIS NEW RELIABLE EVIDENCE
DEALING WITH THE TRUSTWORTHY EYEWITNESS ACCOUNT IN SCHLUP
IT IS MORE LIKELY THAN NOT THAT NO REASON JUROR WOULD HAVE
CONVICTION PETITIONER IN LIGHT OF NEWLY DISCOVERED EVIDENCE
OF HIS INNOCENCE. CONFIDENCE IN THE VERDICT IS GREATLY UNDERMINED

11 .

THESE CASE ILLUSTRATE THE FACT THAT THE THIRD CIRCUIT HAS COURT
OF APPEAL IS OUT STEP WITH THIS COURT IN ITS CONSIDERATION OF
THE STRICKLAND V. WASHINGTON,

466 U.S.

668 687-88

(1984),

PREJUDICE PRONG. CERTIORARI SHOULD BE GRANT TO CORRECT THIS
ERROR AND CONFLICT,

THE IMPORTANCE OF THIS CASE NOT
SIMILARLY SITUATED.

ONLY TO PETITIONER BUT TO OTHER

BECAUSE OF THE CONSTITUTIONAL ERRED DEPRIVED THE JURY OF HEARING
CRITICAL EVIDENCE THAT WOULD HAVE ESTABLISHED PETITIONER MR.
EDWARDS INNOCENCE. THIS COURT SHOULD CONSIDER WHETHER ANY
STANDARD PROVIDES ADEQUATE PROTECTION AGAINST THIS KIND OF
MISCARRIAGE OF JUSTICE THAT WOULD RESULT FROM MR. EDWARDS LIFE
AND LIBERTY TO DIE IN PRISON WHO IS INNOCENT.

SUPREME COURT RULE 10,

12

f

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
NICHOLAS EDWARDS

Date:

AUGUST,

2021

13.

